WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Shirley Dimps

20-85
v.

Taconic Correctional Facility et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

New York State Department of Corrections and Community Supervision;
New York State Department of Civil Service; Taconic Correctional Facility.
□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature

August 26, 2020

Date:

(Type or print) Name

Barbara D. Underwood
□ Mr.

Firm

□ Ms.

□ Mrs.

□ Miss

New York Office of the Attorney General

Address

28 Liberty Street

City & State
Phone

New York, NY

(212) 416-8020

Zip
Email

10005

barbara.underwood@ag.ny.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Shirley Dimps

